COCKLE

2311 Douglas Street Le ga ] Bri e f 8 E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
RICHARD NATOFSKY,
Petitioner,
v.
THE CITY OF NEW YORK,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of December, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
MICHAEL L. FOREMAN SAMUEL O. MADUEGBUNA
PENN STATE LAW. WILLIAM W. COWLES
CIVIL RIGHTS MADUEGBUNA COOPER LLP.
APPELLATE CLINIC 30 Wall Street, 8th Floor
329 Innovation Blvd., New York, NY 10005
Suite 118 (212) 232-0155
University Park, PA 16802 sam.m@mcande.com
(814) 865-3832 weowles@mcande.com
milf25@psu.edu
Counsel of Record Counsel for Petitioner

Subscribed and sworn to before me this 6th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . & ¢ Zhe L, 4
My Commission Expires Nov 24, 2020 *

Notary Public Affiant 38846

 

 
Melanie West, Esq.

Counsel of Record

New York City Office of Corporation Counsel
100 Church Street

New York, NY 10007-2601

Tel: (212) 356-1000

Email: mwest@law.nyc.gov
